Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 STATE AND CMS OVERSIGHT OF
 THE MEDICAID MANAGED CARE
   CREDENTIALING PROCESS




                    Daniel R. Levinson
                     Inspector General

                     November 2013
                     OEI-09-10-00270
EXECUTIVE SUMMARY: State and CMS Oversight of the Medicaid
Managed Care Credentialing Process
OEI-09-10-00270

WHY WE DID THIS STUDY

The Centers for Medicare & Medicaid Services (CMS) issued regulations that States
must comply with to ensure the delivery of quality health care to Medicaid beneficiaries
under managed care. To do so, States must establish uniform provider credentialing
policies and include Federal credentialing provisions in contracts with Medicaid
Managed Care Entities (MCEs). States must also monitor MCEs’ compliance with these
Federal provisions and any additional State credentialing requirements in contracts.

HOW WE DID THIS STUDY

We purposively sampled 6 States and 234 MCEs that included the 3 types of MCEs
subject to the Federal credentialing regulations. To determine the extent to which States
complied with the Federal regulations, we reviewed State documents, such as laws,
administrative codes, State-issued policy letters, and 32 State contracts with MCEs. To
determine whether States monitored MCE compliance with contracts, we reviewed
States’ auditing documents and interviewed State staff. To examine CMS’s oversight of
States’ contracts, we reviewed 32 checklists used by CMS regional office staff to
evaluate compliance of the 32 State contracts with the Federal credentialing provisions.

WHAT WE FOUND

All six States’ credentialing policies and MCE contract provisions met Federal standards.
However, five of six States did not monitor MCEs’ compliance with the Federal provider
nondiscrimination contract provision. This provision requires that MCEs not
discriminate against providers that serve high-risk populations or that specialize in
conditions requiring costly treatment. Also, CMS oversight to ensure the compliance of
State contracts was inconsistent. Our review of 32 checklists showed that CMS regional
office staff did not indicate whether 25 percent of contracts met all Federal credentialing
provisions and many checklists were missing other required contract information.

WHAT WE RECOMMEND

We recommend that CMS issue guidance to States on monitoring MCE compliance with
the Federal provider nondiscrimination contract provision. We also recommend that
CMS regional office staff accurately complete the checklist to ensure State compliance
with the Federal credentialing provisions.
TABLE OF CONTENTS

Objectives .................................................................................................. 1 

Background ................................................................................................ 1 

Methodology .............................................................................................. 5 

Findings.................................................................................................... 10 

           All six States’ credentialing policies and MCE contract                        

           provisions met Federal standards ................................................. 10 

           Five of six States did not monitor MCEs’ compliance with the 

           Federal provider nondiscrimination contract provision ............... 10 

           CMS oversight of the compliance of State contracts was 

           inconsistent .................................................................................. 11

Conclusion and Recommendations .......................................................... 14 

           Agency Comments and Office of Inspector General Response... 15 

Appendixes .............................................................................................. 16 

           A: The Centers for Medicare & Medicaid Services’ Checklist

           for Review of States’ Contracts With Managed Care Entities ..... 16 

           B: Types of Medicaid Managed Care Enrollment by Selected 

           States ............................................................................................ 17 

           C: Selected Criteria for Six States’ Uniform Credentialing and 

           Recredentialing Policies............................................................... 18 

           D: Additional State Credentialing and Recredentialing 

           Requirements ............................................................................... 19 

           E: Agency Comments ................................................................. 21 

Acknowledgments.................................................................................... 23 

                  OBJECTIVES
                  1.	 To determine the extent to which States establish uniform
                      credentialing policies and include the Federal credentialing provisions
                      in contracts with Medicaid Managed Care Entities (MCEs).
                  2.	 To determine the extent to which States monitor MCEs’ compliance
                      with the Federal credentialing contract provisions and State
                      credentialing requirements.
                  3.	 To examine the Centers for Medicare & Medicaid Services’ (CMS)
                      oversight of the compliance of State contracts with the required
                      Federal credentialing provisions.

                  BACKGROUND
                  Medicaid Managed Care
                  States are increasingly adopting managed care as a response to growing
                  Medicaid expenditures.1, 2 Nationally, Medicaid enrollment grew from
                  36.5 million3 in 2001 to 57.1 million in 2011.4 Of these 57.1 million
                  Medicaid beneficiaries, 74 percent were enrolled in managed care.5
                  During a similar period, State Medicaid expenditures increased from
                  $89 billion to an estimated $156 billion, accounting for an estimated
                  24 percent of States’ expenditures in 2011.6 Total Medicaid expenditures
                  more than doubled from approximately $200 billion in 2000 to
                  $432 billion in 2011.7
                  MCEs
                  States contract with MCEs to provide or arrange for health care services
                  on a Statewide or community basis. On the basis of these contracts, an
                  MCE is paid a fixed prospective payment for each beneficiary enrolled


                  1
                    Robert Wood Johnson Foundation, Medicaid Managed Care: Cost, Access, and Quality
                  of Care, Research Synthesis Report No. 23, September 2012. pp. 1-4.

                  2
                    Managed care is a health care delivery system that aims to maximize efficiency by 

                  negotiating rates, coordinating health care, and managing the use of services.

                  3
                    CMS, National Summary of Medicaid Managed Care Programs and Enrollment as
                  July 2010. Accessed at http://www.cms.gov on April 30, 2013. 

                  4
                    CMS, National Summary of Medicaid Managed Care Programs and Enrollment as

                  July 2011. Accessed at http://www.cms.gov on April 30, 2013. 

                  5
                    CMS, 2011 Medicaid Managed Care Enrollment. Accessed at https://www.cms.gov/
                  on April 23, 2012. 

                  6
                    National Association of State Budget Officers, 2010 State Expenditure Report, pp. 

                  44-45. Accessed at http://www.nasbo.org/publications-data/state-expenditure-report on

                  March 28, 2012. 

                  7
                    CMS, 2011 Actuarial Report on the Financial Outlook for Medicaid, 2012. Accessed at 

                  http://www.cms.gov on June 22, 2012.


State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)          1
                  with the MCE. This fixed payment amount is referred to as the
                  “capitated rate.”
                  There are various types of MCEs, including Managed Care Organizations
                  (MCOs), Prepaid Inpatient Health Plans (PIHPs), and Prepaid Ambulatory
                  Health Plans (PAHPs).8, 9 An MCO provides health care services through
                  a comprehensive risk contract with the State.10, 11 PIHPs and PAHPs
                  provide health care services under a managed care contract with the State,
                  but those entities do not have comprehensive risk contracts. PIHPs
                  generally provide inpatient or institutional services (e.g., mental health
                  services), and PAHPs generally provide outpatient services (e.g., dental
                  services). For purposes of this report, we refer to MCOs, PIHPs, and
                  PAHPs collectively as MCEs.
                  Federal Credentialing Contract Provisions
                  The Balanced Budget Act (BBA)12 provided a framework for CMS and
                  States to improve the oversight of managed care. (In 2002, consistent with
                  the BBA, CMS issued a final rule that mandated new Federal provisions
                  that States must include in their contracts with MCEs.13) These provisions
                  address provider selection standards that States must follow to ensure the
                  delivery of quality health care.14
                  Federal regulations give States considerable latitude to create their own
                  uniform credentialing and recredentialing policies and procedures (which
                  we refer to in this report collectively as “credentialing policies”).
                  However, these Federal regulations established provider selection
                  standards that require States to (1) establish uniform credentialing policies




                  8
                    The other four types of MCEs identified by CMS for purposes of tracking enrollment
                  include: (1) Primary Care Case Management Providers, (2) Health Insuring
                  Organizations, (3) Programs for All-Inclusive Care for the Elderly, and (4) Other.
                  9
                    MCOs, PIHPs, and PAHPs are subject to the Federal requirements for provider
                  credentialing. 42 CFR § 438.214.

                  10
                     Comprehensive risk contracts cover inpatient hospital services and three or more of the 

                  following services: outpatient hospital services; rural health clinic services; federally 

                  qualified health center services; laboratory and x-ray services; nursing facility services; 

                  early and periodic screening, diagnostic, and treatment services; family planning services; 

                  physician services; and home health services. 

                  11
                     MCOs are defined in Federal regulations as entities that meet certain Federal 

                  requirements and have a comprehensive risk contract with the State. In a risk contract, 

                  the MCE assumes risk for the cost of the services covered under the contract and incurs

                  loss if the cost exceeds the payments. 42 CFR § 438.2. 

                  12
                     BBA, P.L. 105-33, §§ 4701-4710.
                  13
                     67 Fed. Reg. 40989-40990 (June 14, 2002). Accessed at
                  https://www.federalregister.gov on April 23, 2012.
                  14
                     67 Fed. Reg. 40989, 41031 (June 14, 2002).

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)                2
                  and (2) in State contracts with MCEs, require that MCEs do the
                  following:15, 16, 17
                       	 follow the States’ uniform credentialing policies,18
                       	 follow a documented process for credentialing providers that have
                          signed contracts or participation agreements with MCEs,19
                       	 not discriminate against providers that serve high-risk populations
                          or specialize in conditions that require costly treatment,20, 21 and
                       	 follow any additional requirements established by the State.22
                  Provider Credentialing and Recredentialing
                  Although Medicaid regulations do not define credentialing or
                  recredentialing, for the purposes of this report, we define credentialing as
                  an evaluation of the qualifications of health care providers (providers) that
                  seek contracts or participation agreements with an MCE.23 The
                  credentialing process typically includes steps such as the verification of
                  information on provider applications, site reviews of provider offices, and
                  determination of eligibility for payment under Medicaid. Recredentialing
                  is the periodic update of credentialing information and may also include
                  provider performance data, such as beneficiary complaints, and
                  pay-for-performance and value-driven health care outcomes24 to ensure
                  that providers furnish quality health care.
                  State Monitoring of MCEs
                  States are responsible for monitoring MCE compliance with contract
                  provisions, including the Federal provider selection standards and any
                  credentialing requirements established by the State.25 States decide how

                  15
                     42 CFR §§ 438.200 and 438.204(g).

                  16
                     42 CFR § 438.214(a) and (b).

                  17
                     One additional requirement is that MCEs may not employ or contract with providers 

                  excluded from participation in Federal health care programs. 42 CFR § 438.214(d).

                  18
                     42 CFR § 438.214(b)(1). 

                  19
                     42 CFR § 438.214(b)(2). 

                  20
                     42 CFR § 438.214(c). 

                  21
                     High-risk populations include, but are not limited to, adults and children with special 

                  needs, such those with: mental illness, substance abuse problems, developmental 

                  disabilities and functional disabilities, or complex problems involving multiple medical 

                  and social needs like HIV/AIDS and homelessness.

                  22
                     Federal regulations authorize the States to establish additional standards for their
                  credentialing policies. 42 CFR § 438.214(e). 

                  23
                     We based our definition of credentialing on CMS’s Medicare Managed Care Manual, 

                  Pub. No. 100-16, ch. 6, § 60.3. 

                  24
                     Pay-for-performance links health care spending to quality and effectiveness. The 

                  Commonwealth Fund, Pay-For-Performance in State Medicaid Programs: A Survey of 

                  State Medicaid Directors and Programs, April 2007.

                  25
                     42 CFR §§ 438.8(b)(6), 438.202(c), and 438.12.

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)                3
                  they monitor MCEs.26 For example, States may conduct compliance
                  audits of MCEs. Typically these audits include the use of compliance
                  tools, such as procedural documents and checklists. Federal regulations
                  require States with certain types of MCE contracts to conduct external
                  quality reviews (EQRs) to ensure the delivery of quality health care.27, 28
                  These regulations mandate that States conduct three types of EQR
                  activities, one of which includes a review to determine MCE compliance
                  with the Federal provider selection standards.29, 30, 31
                  CMS Oversight of States
                  Federal regulations specify that CMS regional offices must review and
                  approve State contracts with MCEs.32, 33 CMS implemented the use of a
                  Checklist for Managed Care Contract Approval (checklist) that regional
                  office staff use when evaluating State contracts with MCEs.34 Figure
                  1 illustrates this review process.




                  26
                     States do not perform credentialing functions. States, in their contracts with MCEs, 

                  include all credentialing requirements for MCEs to perform. States must monitor how 

                  MCEs comply with contract provisions. 

                  27
                     MCOs and PIHPs are subject to EQR regulation. 42 CFR pt. 438.

                  28
                     States may choose an external quality review organization (EQRO), a qualified non-

                  EQRO organization, or may designate another State department to perform the EQR.

                  However, an independent agency, such as an EQRO, must draft the final EQR report. 

                  42 CFR § 438.354.

                  29
                     The review to determine compliance with Federal standards, State requirements, and 

                  other applicable contract provisions includes the previous 3-year period. 42 CFR pt. 438.

                  30
                     The other two mandatory activities include validation of performance measures 

                  outlined by the State during the previous 12 months and validation of performance 

                  improvement projects required by the State. 42 CFR §§ 438.240(b)(1) and

                  438.240(b)(2).

                  31
                     There are five optional EQR activities to assess MCO and PIHP performance. 

                  42 CFR pt. 438.

                  32
                     In some cases, CMS may review and approve model contracts. Model contracts exist 

                  where there are multiple types of health care plans that a State contracts with MCEs for, 

                  such as acute-care and long-term-care plans. After being approved by CMS, the model

                  contract serves as the template for States to write individual MCE contracts. For 

                  example, a model contract may exist for all acute-care MCOs within a county or for all 

                  MCOs in the entire State. 

                  33
                     Federal regulations specify that CMS must review and approve all MCO, PIHP, PAHP, 

                  and PCCM contracts. 42 CFR § 438.6(a). 

                  34
                     Although there is no regulatory requirement for CMS to use a checklist in the review 

                  process, CMS has an internal policy that staff must use the checklist for the contract to be

                  approved and released to the State. 


State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)                4
                  Figure 1: CMS Review Process

                                                       CMS
                                                     regional
                       CMS regional                 office staff
                       offices receive                use the                  Any instances                       Upon
                         the State's               checklist to                  of blank or                    approval of
                          contracts.                 evaluate                    insufficient                       the
                            These                    contract                      contract                      contracts,
                          contracts                 provisions                 documentation                     the State
                            contain                      for                   are addressed                       writes
                           Federal                 compliance                   with the State                   individual
                           provider                     with                       by CMS                        contracts
                          selection                   Federal                  regional office.                 with MCEs.
                         standards.                  provider
                                                     selection
                                                   standards.

                  Source: OIG analysis of 32 CMS checklists and interviews with CMS regional office staff, 2011–2012.

                  The checklist is intended to assist CMS regional office staff in
                  determining whether the contracts comply with all Federal statutory and
                  regulatory requirements, including the Federal provider selection
                  standards.35 When completing the checklist, CMS regional staff are
                  required to cite evidence from the contract (e.g., section and page number
                  from the contract or supporting documentation) to support their
                  assessment that the contract was compliant with each requirement.
                  Regional office staff address any instances of absent or insufficient
                  contract documentation with State staff during contract reviews.
                  The checklist also requires the contract to include the following: the name
                  of the CMS reviewer, the name of the State, the contract period, the name
                  of the MCE, the type of program, the type of MCE (e.g., MCO, PIHP, or
                  PAHP), the type of review (e.g., initial contract or contract renewal), and
                  the date that CMS staff reviewed the contract. (See Appendix A for
                  credentialing checklist items.) Multiple CMS reviewers may complete
                  portions of the checklist during contract review. CMS is revising the
                  checklist and expects to complete the revisions in 2013.

                  METHODOLOGY
                  Scope
                  Our evaluation determined the extent to which the six selected States
                  established uniform credentialing policies and included the required



                  35
                    Statutory references and regulatory requirements include applicable sections of the
                  Code of Federal Regulations, the State Medicaid Manual, State Medicaid Directors
                  Letters, and the Social Security Act (SSA).

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)                                  5
                  Federal credentialing provisions in contracts with MCEs.36 All of the
                  State policy documents and contracts with MCEs that we collected were in
                  effect during 2011. We also determined the extent to which States
                  monitored MCE compliance with Federal credentialing contract
                  provisions and any State-established credentialing requirements. We
                  collected States’ most recent compliance audits of MCEs,37 which were
                  from 2010; States’ most recent compliance tools, which were from
                  2011 and 2012; and States’ most recent EQRs, which were from 2010 and
                  2011.38
                  We examined CMS’s oversight of the compliance of State contracts with
                  Federal credentialing provisions. We focused on the credentialing section
                  of the checklist and collected checklists for active contracts with States.
                  Finally, we analyzed data from interviews we conducted with CMS and
                  State staff during 2011 and 2012.
                  Sample Selection
                  We purposively selected six States—Arizona, California, Florida,
                  New York, Pennsylvania, and Texas. We selected Arizona because it has
                  some of the oldest contracts with MCEs in the United States. We selected
                  five additional States to include those with the greatest total numbers of
                  MCEs per State and the largest percentages of Medicaid beneficiaries
                  enrolled in these MCEs as of July 2010 (see Table 1).39, 40 Collectively,
                  these six States represented 37 percent of total Medicaid managed care
                  enrollment and 46 percent of the total number of Medicaid MCEs
                  nationwide.41
                  Within the six States, we included only the three types of MCEs that are
                  subject to the Federal credentialing provisions: MCOs, PIHPs, and
                  PAHPs. These totaled 234 MCEs. Collectively, these three types of
                  MCEs represent 86 percent of Medicaid beneficiaries enrolled in managed
                  care in the six States. (See Appendix B for details about the number of
                  Medicaid beneficiaries enrolled in all types of MCEs.)

                  36
                     For the purposes of this report, we did not assess compliance with the provider 

                  selection standard relating to excluded providers. A February 2012 OIG report—

                  Excluded Providers in Medicaid Managed Care Entities, OEI-07-09-00630—focused on

                  this requirement.

                  37
                     Some States conduct compliance audits annually, whereas other States conduct them at 

                  intervals ranging from 1 to 3 years. 

                  38
                     EQRs are conducted every 3 years. 

                  39
                     CMS, 2010 Medicaid Managed Care Enrollment Report, 2011. 

                  40
                     For sampling purposes, we included all seven types of MCEs that CMS identifies for 

                  purposes of tracking enrollment: (1) Medicaid and Commercial MCOs, (2) PIHPs, 

                  (3) PAHPs, (4) Primary Care Case Management Providers, (5) Health Insuring
                  Organizations, (6) Programs for All-Inclusive Care for the Elderly, and (7) Other.
                  41
                     CMS, 2010 Medicaid Managed Care Enrollment Report, 2011.

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)            6
                  The 6 States are under the oversight of 5 of the 10 CMS regional offices.
                  As part of our evaluation, we interviewed staff from these five regional
                  offices.
                  Table 1: Medicaid Managed Care Enrollment in Six Sampled States

                                                                        Medicaid Beneficiaries

                                           Total                           Total Number
                                       Number          Total Number          Enrolled in     Percent Enrolled in
                                       of MCEs           Enrolled in           Medicaid      Medicaid Managed
                    State               in State           Medicaid        Managed Care                    Care
                    California               47             7,326,862            4,033,378                 55%

                    New York                 61             4,740,518            3,226,755                 68%

                    Texas                    25             3,763,896            2,520,307                 67%

                    Florida                  69             2,853,392            1,839,940                 64%

                    Pennsylvania             67             2,029,591            1,658,059                 82%

                    Arizona                  30             1,322,359            1,196,192                 90%
                    Purposive
                                                42
                    Sample of Six         299             22,036,618           14,474,631                  66%
                    States
                    All Other
                                            356           32,575,775           24,545,244                  75%
                    States
                       Total                655           54,612,393           39,019,875                  71%
                  Source: CMS, 2010 Medicaid Managed Care Enrollment Report, 2011.


                  Data Sources and Data Collection
                  State establishment of uniform policies and inclusion of the required
                  Federal credentialing provisions in contracts with MCEs. From the six
                  States, we collected State contracts with MCEs and other State documents,
                  such as State laws, administrative codes, and State-issued policy letters.
                  We grouped the contracts into 32 types; each type corresponded to a
                  contract or model contract that the States used for writing individual MCE
                  contracts.
                  State monitoring of MCE compliance with contract provisions. To
                  determine whether States monitored MCEs, we conducted onsite and
                  followup telephone interviews with State staff who were responsible for
                  contract oversight and MCE monitoring. We collected documents that
                  substantiate States’ monitoring of MCEs, including compliance audits;
                  audit compliance tools, such as procedures and checklists; and EQRs.
                  From these six States, we collected only the credentialing sections of
                  audits from 2010. In addition, the six States provided us with their
                  credentialing policy documents, such as manuals, for all MCEs.


                  42
                    Although there was a total of 299 MCEs among the 6 sampled States, we included only
                  the 3 types of MCEs subject to the Federal credentialing provisions. These totaled
                  234 MCEs.

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)                       7
                  CMS oversight of the compliance of State contracts with required Federal
                  credentialing provisions. We collected 32 checklists from the 5 CMS
                  regional offices that had oversight of the 6 sampled States. These
                  32 checklists were used by CMS to review the 32 contracts used by the
                  States to write individual MCE contracts. We conducted telephone
                  interviews with CMS staff in the five CMS regional offices and in the
                  central office about their use of the checklists to review and approve
                  managed care contracts. We also asked CMS central office staff whether
                  they provided guidance to regional offices about checklist use.
                  Data Analysis
                  State establishment of uniform policies and inclusion of the required
                  Federal credentialing provisions in contracts with MCEs. We reviewed
                  State documents, such as State laws, administrative codes, and State-
                  issued policy letters, to determine whether States established uniform
                  credentialing policies. We then reviewed the 32 contracts to verify that the
                  States required MCEs to:
                       	 follow the States’ uniform credentialing policies,
                       	 follow a documented process for credentialing providers that have
                          signed contracts or participation agreements with MCEs,
                       	 not discriminate against providers that serve high-risk populations
                          or specialize in conditions that require costly treatment, and
                       	 follow any additional requirements established by the State.  
                  State monitoring of MCE compliance with contract provisions. We
                  analyzed our interview responses from State staff to understand how the
                  six States monitored MCEs’ compliance with Federal contract provisions
                  and any State-established credentialing requirements. We then reviewed
                  compliance audits and audit compliance tools provided by the six States
                  and EQRs provided by two States to substantiate our onsite interview
                  responses.43 In addition, we reviewed all the MCEs’ credentialing policy
                  documents to verify that each MCE had written credentialing policies. To
                  determine whether these documents complied with the Federal
                  credentialing provisions, we compared them to the State contracts with
                  MCEs.
                  CMS oversight of the compliance of State contracts with required Federal
                  credentialing provisions. We reviewed the 32 CMS checklists to
                  determine whether regional office staff completed the checklists
                  accurately when reviewing the contracts. To determine whether staff

                  43
                     We excluded EQRs from four of our six States because their most recent EQRs were
                  conducted prior to 2010.

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)            8
                  verified that the contracts complied with the Federal credentialing
                  requirements, we compared the checklists with the contracts. We analyzed
                  our interviews with CMS regional and central office staff to supplement
                  and validate our understanding of how regional office staff evaluate
                  compliance of State contracts and complete the checklists.
                  Limitations
                  The results of our analyses are limited to the purposive sample of the
                  6 States we selected and their 234 MCEs. We do not project these results
                  on a national basis.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)   9
                  FINDINGS
                  All six States’ credentialing policies and MCE contract
                  provisions met Federal standards
                  All six States established uniform credentialing policies, such as State
                  laws, administrative codes, and State-issued policy letters. (See
                  Appendix C for the criteria that these States required in their uniform
                  policies.) In addition, all six States included the required Federal
                  credentialing provisions in their contracts with MCEs, which required
                  MCEs to:
                       	 follow the States’ uniform credentialing polices,
                       	 follow a documented process for credentialing providers that have
                          signed contracts or participation agreements with MCEs,
                       	 not discriminate against providers that serve high-risk populations
                          or specialize in conditions that require costly treatment, and
                       	 follow additional requirements established by the State.
                  With respect to the additional requirements established by the States, all
                  six States required that MCEs: use a peer review credentialing committee
                  to evaluate provider credentialing files, conduct onsite reviews of
                  physician offices, use provider performance data during recredentialing,
                  and notify the State if a provider is suspended or terminated from the
                  MCE network. (See Appendix D for more information about the States’
                  additional requirements.)
                  Five of six States did not monitor MCEs’ compliance
                  with the Federal provider nondiscrimination contract
                  provision
                  All six States monitored MCE compliance with three of the four Federal
                  credentialing contract provisions and all State-established credentialing
                  requirements. However, five of six States did not monitor MCEs’
                  compliance with the Federal contract provision to not discriminate against
                  providers that serve high-risk populations or that specialize in conditions
                  that require costly treatment. These five States’ 2011 and 2012 auditing
                  tools (e.g., procedures and checklists) did not address MCE compliance
                  with this requirement, nor did their 2010 compliance audits or the
                  2010 and 2011 EQRs. In addition, during our initial onsite interviews and
                  followup interviews, staff from the five States could not indicate how they
                  monitored this requirement. During followup interviews with staff from
                  the five States, some staff reported that MCEs complied because it was
                  required in contracts. Other States’ staff reported that MCEs would not
                  need to comply because the MCEs would not discriminate against

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)   10
                  providers. In those instances, the MCEs had contracts or participation
                  agreements only with providers that served specialized populations (i.e.,
                  children under 21 with social and behavioral problems).
                  In addition, in three of the five States that did not monitor MCE
                  compliance with the provider nondiscrimination contract provisions, nine
                  MCEs lacked the nondiscrimination requirement in their policies. Our
                  interviews with State staff and our review of MCE credentialing policy
                  documents showed that staff in these three States were unaware that the
                  nine MCEs lacked this requirement in their policies.
                  CMS oversight of the compliance of State contracts
                  was inconsistent
                  CMS regional office staff are required to indicate on the checklist whether
                  State contracts with MCEs comply with all Federal credentialing
                  provisions. However, CMS staff did not always indicate whether
                  contracts with MCEs met Federal credentialing provisions, and many
                  checklists were missing other required information.
                  CMS regional office staff did not indicate whether 25 percent
                  of State contracts with MCEs met Federal credentialing
                  provisions
                  In 25 percent of CMS’ reviews (8 of 32 checklists), we found that regional
                  office staff did not indicate whether contracts were compliant with all
                  Federal credentialing provisions. Our review of the checklists identified
                  three ways in which staff did not indicate whether contracts were
                  compliant:
                       (1) Checklists were incomplete. Staff in two CMS regional offices
                           only partially completed State contract reviews of six checklists.
                           Although staff indicated that they reviewed State contracts, they
                           did not indicate whether these contracts complied with all Federal
                           credentialing provisions on the checklists.
                       (2) Checklist documentation was contradictory. Staff in one CMS
                           regional office indicated on a checklist that a State’s contract with
                           an MCE was both compliant and noncompliant with the Federal
                           credentialing provisions. For example, on one section of the
                           checklist, staff indicated that the contract included the Federal
                           provider nondiscrimination provision; on another section of the
                           checklist, staff indicated that this contract provision was missing.
                           In this instance, CMS regional office staff could not explain this
                           internal contradiction.
                       (3) Checklist incorrectly indicated compliance with Federal provision.
                           Staff in one CMS regional office incorrectly indicated on the

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)   11
                             checklist that the Federal provider nondiscrimination provision
                             was not an applicable contract requirement. In this instance, staff
                             indicated that these were contracts with MCEs that, upon
                             enrollment, served high-risk populations and thus did not need to
                             comply with this Federal provision. However, all State contracts
                             are subject to the Federal credentialing provisions and must be
                             evaluated for compliance by CMS. Failure to indicate on the
                             checklist whether contracts comply with all Federal credentialing
                             provisions may lead to inconsistent oversight by staff within the
                             CMS regional offices.
                  Many checklists were missing other required contract
                  information
                  All 5 CMS regional offices approved 15 of the 32 contracts (47 percent)
                  with checklists that were missing required information other than whether
                  the MCEs met Federal credentialing provisions. The 4 most common
                  types of information missing from the 15 checklists were the name of the
                  CMS reviewer, the contract period, the date of contract review, and the
                  type of review (see Table 2).

                  Table 2: Required Information Missing on CMS Checklists
                  for Reviews of State Contracts With MCEs
                                                                                   Number of
                                                                                   Checklists
                    Required Items on the Checklist
                                                                                Missing Items
                                                                                       (n=32)

                    Name of CMS reviewer                                                       11

                    Period of State contract with MCE                                           6

                    Date of CMS review of State contract with MCE                               5

                    Type of review (e.g., initial, renewal, amendment)                         5

                                     44
                    Type of program (e.g., waiver type or State plan
                                                                                                3
                    amendment)

                    Name of State                                                               1

                    Name of MCE                                                                 1

                    Type of entity (e.g., PIHP, PAHP, MCO)                                      0

                  Source: OIG analysis of 32 CMS checklists, 2011.




                  44
                     States provide services to eligible Medicaid beneficiaries through MCEs under State
                  plan amendments or waiver programs. Amendments and waivers must conform to the
                  Medicaid program requirements specified in the SSA. Waivers allow States more
                  flexibility and also control Medicaid spending.

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)               12
                  Five of the fifteen checklists were missing two or more types of
                  information. For example, one checklist did not include the name of the
                  CMS reviewer who completed the contract review, the dates of contract
                  review, and the name of the State. These 15 checklists were used to
                  review and approve contracts between all 6 States and MCEs. The lack of
                  required contract information on the checklist could contribute to
                  ineffective oversight. For example, when a State amends its contracts
                  with MCEs, CMS regional office staff will reference the checklists and the
                  contracts. In one instance, a new staff member from one CMS regional
                  office could not identify a previously approved State contract because
                  information was missing from the corresponding checklist.




State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)   13
                  CONCLUSION AND RECOMMENDATIONS
                  All six States’ credentialing policies and provisions for contracts with
                  MCEs met Federal standards. However, States are also required to
                  monitor MCEs’ compliance with these contracts. Five of six States did
                  not monitor MCEs’ compliance with the Federal provider
                  nondiscrimination contract provision. This provision requires that MCEs
                  not discriminate against providers that serve high-risk populations or that
                  specialize in conditions requiring costly treatment. Also, CMS oversight
                  of the compliance of State contracts was inconsistent. Our review of
                  32 checklists showed that CMS regional office staff did not indicate
                  whether 25 percent of contracts met all Federal credentialing provisions,
                  and many checklists were missing other required contract information.
                  We recommend that CMS:
                  Issue Guidance to States on Monitoring MCE Compliance With
                  the Federal Provider Nondiscrimination Contract Provision
                  CMS could issue a State Medicaid Directors’ letter emphasizing States’
                  obligation to monitor MCEs’ compliance with the provider
                  nondiscrimination provision. Guidance could include methods for
                  monitoring compliance with this provision. In addition, CMS could work
                  with States to help identify methods for monitoring compliance with this
                  provision. CMS could also require that States include the provider
                  nondiscrimination requirement as part of their existing monitoring
                  activities, such as compliance audits, compliance tools, or protocols.
                  Have CMS Regional Office Staff Accurately Complete the
                  Checklist To Ensure State Compliance With the Federal
                  Credentialing Provisions
                  To ensure that regional offices oversee the compliance of State contracts
                  with the Federal credentialing provisions, CMS could implement a process
                  to ensure that its regional office staff complete the checklist when
                  evaluating compliance with the Federal credentialing requirements. CMS
                  could also provide additional education and training to all regional office
                  staff on how to document whether State contracts with MCEs are
                  compliant with all Federal credentialing provisions.




State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)   14
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with both of OIG’s recommendations and will implement
                  changes to address them.
                  CMS concurred with our first recommendation, that it issue guidance to
                  States on monitoring MCE compliance with the Federal provider
                  nondiscrimination contract provision. CMS stated that it is preparing such
                  guidance, which may be issued as soon as mid-2014.
                  CMS concurred with our second recommendation, that it have regional
                  office staff accurately complete the checklist to ensure State compliance
                  with the Federal credentialing provisions. CMS stated that to better ensure
                  that regional office staff complete the checklist accurately and thoroughly
                  when evaluating compliance with the Federal credentialing provisions, it
                  is developing an electronic checklist. This improved checklist template is
                  expected to be operational in early 2014. CMS will train regional office
                  staff on the purpose and use of the template. In the interim, CMS will
                  reiterate the importance of fully completing the checklist to each of its
                  10 regional offices.
                  We did not make any changes to the report based on CMS’s comments.
                  The full text of CMS’s comments is provided in Appendix E.




State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)   15
                      APPENDIX A
                      The Centers for Medicare & Medicaid Services’ Checklist for
                      Review of States’ Contracts With Managed Care Entities
                      The Centers for Medicare & Medicaid Services’ (CMS) regional offices
                      must review and approve States’ contracts with Medicaid Managed Care
                      Entities’ (MCEs).45 The Checklist for Managed Care Contract Approval
                      (checklist) is intended for use by regional office staff to evaluate these
                      contracts. The checklist instructions indicate that CMS regional office
                      staff are to compare the “Subject” column in the checklist with the
                      language in the contract to determine whether the contract contains the
                      required language. CMS regional office staff are to enter in the “Where
                      Found” column the location of the required language in the contract or
                      other State documents. If the language is present and fulfills the
                      requirement, CMS regional office staff should place a check in the “Met”
                      column. If the language is absent, CMS regional office staff should leave
                      the column blank or indicate “no.” Table A-1 shows the provider
                      selection items we reviewed for this study.
Table A-1: Provider Selection Checklist Items for States’ Contracts with MCEs

 Checklist                                                                               Entity   Where
                 Regulatory Basis                                             Subject                     Met   Comments
 Item                                                                                     Type    Found

                                             Contracts with Health Care Providers.
                                                    In all contracts with health care
                                          professionals, an MCE must comply with
                           42 CFR
                                                      the requirements specified in
 D.2.01               438.12(A)(2);                                                       MCE
                                                   42 CFR 438.214, which include:
                   42 CFR 438.214
                                               selection and retention of providers,
                                                  credentialing and recredentialing
                                              requirements, and nondiscrimination.
                                           Selection and Retention of Health Care
                            42 CFR                                        Providers.
                         438.214(a);       Each contract must require the entity to
                            42 CFR        have written policies and procedures and
 D.2.02                                                                                   MCE
                      438.214(b)(1);                a description of its policies and
                            42 CFR        procedures for selection and retention of
                       438.214(b)(2)       providers following the State’s policy for
                                                 credentialing and recredentialing.

                                                                   Nondiscrimination.
                                                  The contract must require that the
                                             entity’s provider selection policies and
                             42 CFR
 D.2.04                                        procedures not discriminate against        MCE
                           438.214(c)
                                            particular providers that serve high-risk
                                             populations or specialize in conditions
                                                        that require costly treatment.
Source: Office of Inspector General analysis of 32 selected CMS checklists, 2011.




                      45
                           42 CFR § 438.6(2).

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)                         16
                     APPENDIX B
                     Types of Medicaid Managed Care Enrollment by Selected
                     States
                     States may contract with up to seven different types of Medicaid managed
                     care entities (MCEs). For sampling purposes, we included only the three
                     types of MCEs subject to the Federal credentialing requirements:
                     Managed Care Organizations (MCOs), Prepaid Inpatient Health Plans
                     (PIHPs), and Prepaid Ambulatory Health Plans (PAHPs). Table B-1
                     shows the number of Medicaid beneficiaries enrolled in the three types of
                     MCEs in our sample and the number of beneficiaries in the other four
                     types of MCEs, as of June 2010.
           Table B-1: Number of Medicaid Beneficiaries Enrolled in MCEs by Entity Type46

                                                  47
                                            MCO                                                      Four other
                                                                                                       types of
                                                                                                             48
             State               Commercial            Medicaid-         PIHP            PAHP           MCEs                 Total
                                                            only
             Arizona                          0        1,196,192      116,014                 0                 0       1,312,206

             California             3,211,912              8,201           106         556,741           782,485        4,559,445

             Florida                  756,125           334,754       846,885          331,953           590,594        2,860,311

             New York                 881,942          2,293,891       28,574                 0           22,348        3,226,755

             Pennsylvania           1,094,568                 0     1,629,152          479,596           293,005        3,496,321

             Texas                    240,119          1,430,435      365,127           62,980           849,756        2,948,417


               Total of six
                                    6,184,666          5,263,473    2,985,858        1,431,270         2,538,188      18,403,455
               States

             All Other
                                    5,013,645          9,433,306    6,378,372      10,014,871          7,612,348      38,452,542
             States

               Total of 50
                                   11,198,311      14,696,779       9,364,230      11,446,141        10,150,536       56,855,997
               States
           Source: Office of Inspector General analysis of the Centers for Medicare & Medicaid Services’ 2010 Medicaid Managed Care
           Enrollment Report, 2011.




                     46
                        Total number of enrollees includes those who were enrolled in more than one managed
                     care plan. Figures also include individuals enrolled in State health care reform programs
                     that expand eligibility beyond traditional Medicaid eligibility standards.
                     47
                        A commercial MCO provides comprehensive services both to commercial enrollees
                     and to Medicaid beneficiaries and/or Medicare beneficiaries. A Medicaid-only MCO
                     provides comprehensive services only to Medicaid beneficiaries, not to commercial
                     enrollees or Medicare beneficiaries.
                     48
                        The other four types of MCEs include: Health Insuring Organization, Program for
                     All-Inclusive Care for the Elderly, Primary Care Case Management Provider, and Other.

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)                                   17
                      APPENDIX C
                      Selected Criteria for Six States’ Uniform Credentialing and
                      Recredentialing Policies
                      Although States are required to establish uniform credentialing and
                      recredentialing (credentialing) policies and include these policies in
                      contracts with Medicaid managed care entities, States have the authority to
                      determine the specific criteria for their policies. Table C-1 shows the
                      credentialing criteria for each of the six States in our study. States do not
                      necessarily limit their requirements to the criteria reflected in the table.
                      We grouped together common requirements for all provider types (e.g.,
                      physicians and nonphysicians); however, some States specify other
                      requirements for each provider type.
Table C-1: Selected Credentialing Criteria for Six Sampled States




                                                                                                                           Pennsylvania
                                                                                                    California




                                                                                                                                              New York
                                                                                          Arizona




                                                                                                                 Florida




                                                                                                                                                         Texas
 Provider Credentialing




 Verification of the following:
 1. Current license, certifications (or practitioner number), degree(s), and residency         49
                                                                                          Y               Y       Y                       Y       Y      Y
 or specialty training
 2. Status with Medicare and Medicaid Programs, including sanctions and the
 Health and Human Services Office of Inspector General list of excluded                         Y         Y       Y                       Y       Y      Y
 individuals/entities
 3. Evidence of malpractice/liability insurance and pending lawsuits or litigations             Y         Y      N                        Y       Y      Y
 4. Sanctions or limitations from State agencies or licensing boards                            Y         Y       Y                       Y       Y      Y
 5. A valid Drug Enforcement Administration certification or number                             Y         Y       Y                       Y       Y      Y
 6. Present in the National Provider/Practitioner Databank. In lieu of this, verify the
 following: any disciplinary action with regulatory board, State sanctions, or                  Y         Y       Y                       Y       Y      Y
 disciplinary claims resulting in a judgment or settlement.
 7. Adherence to the ethics of the appropriate professional organization (e.g.,
                                                                                               N         N       N                        Y       N      Y
 American Medical Association)
 8. Work history                                                                                Y         Y       Y                       Y       N      Y
 Attestation of the following:
 9. Any limitations in ability to perform essential position functions                          Y         Y       Y                   N           N      Y
 10. History of loss of license or felony convictions                                           Y         Y       Y                   N           N      Y
 11. Lack of loss or limitation of privileges or disciplinary activity                          Y         Y       Y                   N           N      Y
 12. Lack of present illegal drug use                                                           Y         Y       Y                   N           N      Y
 Provider Recredentialing
 13. Occurs at least every 3 years                                                              Y         Y       Y                       Y       Y      Y
 14. Involves verifying/updating information obtained during credentialing                      Y         Y       Y                       Y       Y      Y
 15. Is a documented process that includes provider performance data, such as
                                                                                                Y         Y      N                        Y       Y      Y
 complaints, quality of care issues, and results of medical record reviews
Source: Office of Inspector General analysis of State documents, 2011–2012.




                      49
                         “Y” indicates that the State requires this credentialing criterion. “N” indicates that the
                      State did not require this credentialing criterion.

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)                                                             18
                  APPENDIX D
                  Additional State Credentialing and Recredentialing
                  Requirements
                  Federal regulations authorized States to establish additional standards for
                  their credentialing and recredentialing policies.50 Our review of six
                  States’ credentialing and recredentialing policies for Medicaid managed
                  care entities (MCEs) showed that all six States established additional
                  credentialing and recredentialing requirements and included them in their
                  contracts with MCEs. We developed four categories to describe these
                  requirements:
                         (1) Credentialing committee. 	All six States specified that MCEs must
                             designate a credentialing committee that uses a peer review
                             process to evaluate provider credentialing files (including
                             recredentialing files). These States typically required that a
                             medical director (a physician) oversee the credentialing committee.
                             One State’s policy required that the medical director delineate the
                             credentialing roles within the committee. The credentialing
                             committee, including the medical director, is responsible for
                             credentialing decisions and is required to document its steps in the
                             decision process and maintain individual provider files. 
                         (2) Onsite reviews. 	All six States required onsite reviews of physician
                             offices during initial credentialing; however, only two of the six
                             States required onsite reviews during recredentialing. One of these
                             six States required onsite reviews during recredentialing for dental
                             providers only. In addition, in four States, MCEs may conduct
                             onsite reviews of physician offices for any reason, including
                             complaints from Medicaid beneficiaries. During this site review, the
                             MCEs evaluate medical records and confidentiality practices and
                             investigate any type of complaints (e.g., complaints from
                             beneficiaries, the public, or providers).
                         (3) Provider performance data during recredentialing.	 All six States
                             required MCEs to have a documented process for monitoring
                             provider performance. In addition, all six States required MCEs to
                             have procedures that consider provider performance data during
                             the recredentialing process. Examples of provider performance
                             data included complaints from Medicaid beneficiaries; quality of




                  50
                       42 CFR § 438.214(e).

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)   19
                            care issues; pay-for-performance data;51 and utilization
                            management information, such as emergency room use and
                            beneficiaries’ lengths of stay in hospitals. 
                       (4) Notification requirement. 	All six States required MCEs to have a
                           documented process for reporting to appropriate authorities—such
                           as the State and the State medical board—serious issues or quality
                           deficiencies that result in suspension or termination of a provider.
                           For example, MCEs in one State were required to document their
                           disciplinary actions against providers, including suspension or
                           termination of a provider’s privileges. In such a case, the MCE
                           must notify the provider and the State. 




                  51
                    Pay-for-performance links health care spending to quality and effectiveness. The
                  Commonwealth Fund, Pay-For-Performance in State Medicaid Programs: A Survey of
                  State Medicaid Directors and Programs, April 2007.

State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)       20
                        APPENDIX E
                        Agency Comments

   ,.........,

  ( tf_
   ,::tz'­         DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Serviceo


                                                                                            Administrator
                                                                                            Washington, DC 20201




                  DATE:          AUG • S Z01l
                  TO:            Daniel R. Levinson
                                 Inspector General

                  FROM:          Marilyn Tavenner
                                                      /S/
                                 Administrator

                  SUBJECT:       Office of Inspector General (OIG) Draft Report: "State and CMS Oversight of
                                 the Medicaid Managed Care Credentialing Process" (OEI-09-1 0-00270)


                  Thank you for the opportunity to review and comment on the subject OTG draft report. The
                  Centers for Medicare & Medicaid Services (CMS) has reviewed this report and offers the
                  following comments.

                  Federal regulations require states to ensure the delivery of quality health care to Medicaid
                  beneficiaries under managed care. The purpose of this study was to determine the extent to
                  which states comply with the federal regulations to establish uniform provider credentialing
                  policies and include federal credentialing provisions in contracts with Medicaid Managed Care
                  Entities (MCEs). States must also monitor MCEs' compliance with these federal provisions and
                  any additional state credentialing requirements in contracts.

                  The OIG sampled six states (Arizona, California, Florida, New York, Pennsylvania, and Texas)
                  and 234 MCEs that included the three types ofMCEs subject to the federal credentialing
                  regulations (Managed Care Organizations, Prepaid Inpatient Health Plans, and Prepaid
                  Ambulatory Health Plans). To determine the extent to which states complied with the federal
                  regulations, OIG reviewed state documents such as laws, administrative codes, state-issued
                  policy letters, and 32 contracts. To determine whether states monitored MCE compliance with
                  contracts, OIG reviewed states' auditing documents and conducted interviews with state staff.
                  To examine CMS's oversieht of states' contracts, OIG reviewed 32 checklists used by CMS
                  regional office staff to evaluate compliance ofthe 32 state contracts with the federal
                  credentialing provisions.

                  All six states' credentialing policies and provisions for contracts with MCEs met federal
                  standards. However, states are also required to monitor MCEs' compliance with these contracts.

                  The OIG found that five of six states did not monitor MCEs' compliance with the federal
                  provider nondiscrimination contract provision. This provision requires that MCEs not
                  discriminate against providers that serve high-risk populations or specialize in conditions




State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)                                           21
State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)   22
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Timothy Brady, Regional
                  Inspector General for Evaluation and Inspections in the San Francisco
                  regional office, and Michael Henry, Deputy Regional Inspector General.
                  Anthony Guerrero-Soto served as the team leader for this study. Other
                  Office of Evaluation and Inspections staff from the San Francisco regional
                  office who conducted the study include Marcia Wong. Central office staff
                  who provided support include Kevin Farber, Meghan Kearns, and
                  Christine Moritz. Leah Bostick of the Dallas regional office also provided
                  support.




State and CMS Oversight of the Medicaid Managed Care Credentialing Process (OEI-09-10-00270)   23
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
